WAIVER
Supreme Court of the United States
No. 21-5177

Skyler Chiras

v.

(Petitioner)

Jill Marshall, Superintendent, Colorado
Mental Health Institute at Pueblo
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:

X

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature 1:2-601tACC(-,

t

Date:

, io 21

(Type or print) Name 5.tavIca tAiyoki CA
gMs.
0 Mr.
Firm

0 Mrs.

0 Miss

Co‘Oracio DeatintlelAl- o.f Law

1300 1:5rOaol\Nayi to-114 TWO/
Co
City & State Devi vett

Address

Phone

9' 20 S055Q,CoSk

Email

‘01 aVICa•VYIN at-O(

ziptb203
coallov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
CC:

RECEIVED
AUG 2 3 2021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

